               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   Noncompetitive Purchasing Practices

                       Audit Report




                                         September 25, 2013

Report Number SM-AR-13-004
                                                                   September 25, 2013

                                             Noncompetitive Purchasing Practices

                                                       Report Number SM-AR-13-004




BACKGROUND:
Contract competition allows the U.S.        21 of 56 purchases (or 38 percent of
Postal Service to solicit suppliers to      purchases) valued at $37,064,806.
obtain the best quality goods and           Employees did not maintain sufficient
services at a fair and reasonable price.    documentation to support price and cost
According to Postal Service policy,         analyses, were unaware of policy, did
when contracts are awarded without          not explore all alternatives practicable in
competition, a noncompetitive purchase      their justifications not to compete
request must justify the reason not to      purchases, and did not always obtain
compete. The competition advocate,          required contract documents from
responsible for challenging barriers to     international suppliers due to cultural
competition, must review such requests      and language barriers. Further,
valued at $1 million or more. Postal        instructions on emergency
Service contracting officials made 1,682    noncompetitive contracts did not include
noncompetitive purchases valued at          clear guidelines for contract
$1.3 billion during fiscal years 2011 and   documentation requirements.
2012.                                       If contracting officials do not conduct
                                            price or cost analyses and adequately
Price and cost analyses are key factors     assess noncompetitive justifications,
in achieving fair and reasonable prices.    there is an increased risk that the Postal
Price analysis is evaluating a proposed     Service will not obtain fair and
price without evaluating its separate       reasonable prices when purchasing
cost components, while cost analysis is     products and services. We statistically
an assessment of the direct and indirect    projected at least $210 million in
costs leading to the final price. Our       unsupported questioned costs.
objectives were to determine whether
Postal Service contracting officials        WHAT THE OIG RECOMMENDED:
conducted a sufficient price or cost        We recommended that management
analysis to support the reasonableness      instruct employees to include required
of noncompetitive contract prices and to    documentation in contract files, reiterate
assess the associated noncompetitive        contracting policy, promote increased
justifications.                             competition, clarify guidance on
                                            emergency noncompetitive contracts,
WHAT THE OIG FOUND:                         and explore opportunities to reduce
Contracting officials did not provide       cultural and language barriers with
documentation to support price or cost      international suppliers.
reasonableness and justifications to
award noncompetitive purchases for          Link to review the entire report
September 25, 2013

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Noncompetitive Purchasing Practices
                           (Report Number SM-AR-13-004)

This report presents the results of our audit of Noncompetitive Purchasing Practices
(Project Number 13WG004SM000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Supply Management and Facilities, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Noncompetitive Purchasing Practices                                                                                SM-AR-13-004



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Price Reasonableness .................................................................................................... 1

   Price and Cost Analysis ............................................................................................... 2

   Supporting Documentation .......................................................................................... 3

Noncompetitive Justifications .......................................................................................... 4

   Competing Contracts ................................................................................................... 4

   Noncompetitive Purchase Requests ............................................................................ 5

International Air Transportation Contract Documentation................................................ 6

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objectives, Scope, and Methodology ........................................................................ 11

   Prior Audit Coverage ................................................................................................. 13

Appendix B: Monetary Impact ....................................................................................... 14

Appendix C: Management’s Comments ........................................................................ 15
Noncompetitive Purchasing Practices                                             SM-AR-13-004




Introduction

This report presents the results of our audit of Noncompetitive Purchasing Practices
(Project Number 13WG004SM000). Our objectives were to determine whether
contracting officials conducted a price or cost analysis to support that noncompetitive
contract prices were fair and reasonable and to assess the associated noncompetitive
justifications. See Appendix A for additional information about this audit.

Contract competition allows the solicitation of a sufficient number of suppliers to obtain
the best quality goods and services at a fair and reasonable price. When contracts are
awarded without competition, a noncompetitive purchase request (NPR) must justify the
reason not to compete. The competition advocate (CA), responsible for challenging
barriers to competition, must review all requests valued at $1 million or more. Price and
cost analyses are key factors to achieving fair and reasonable prices. Price analysis is
the process of evaluating a proposed price without evaluating its separate cost
components, while cost analysis is an assessment of the direct and indirect costs
leading to the final price.

Conclusion

Contracting officials did not provide documentation to support price or cost
reasonableness and justifications to award noncompetitive purchases for 21 of
56 purchases (or 38 percent of purchases) valued at $37,064,806. Specifically, they did
not conduct price or cost analysis or maintain documentation to support the
reasonableness of 13 purchases. In addition, they did not fully complete the
noncompetitive justification for awarding 10 purchases, two of which were also missing
documentation to support price reasonableness. Further, contracting officials did not
always obtain required contract documents from international suppliers due to cultural
and language barriers.

Based on our statistical sample, we projected that at least $210 million of the $1.3 billion
in purchases made during fiscal years (FY) 2011 and 2012 did not contain
documentation to support price or cost reasonableness and justifications to award
noncompetitive purchases. This amount was claimed as unsupported questioned costs
because of missing or incomplete documentation or failure to follow policy or required
procedures but does not necessarily indicate that the Postal Service incurred actual
loss. See Appendix B for monetary impact details.

Price Reasonableness

Contracting officials did not conduct price or cost analyses or maintain documentation to
fully support 13 of 56 noncompetitive purchases (or 23 percent of purchases) valued at
$7,394,258. Specifically, they did not conduct analyses to determine price

                                             1
Noncompetitive Purchasing Practices                                                                   SM-AR-13-004



reasonableness for six purchases valued at $650,737 and did not maintain
documentation to support their analyses for seven purchases, valued at $6,743,521.

Price and Cost Analysis

Contracting officials did not conduct a price or cost analysis to determine price
reasonableness for six purchases valued at $650,737 (see Table 1).

                            Table 1. Price or Cost Analysis by Portfolio

                                                           No Price
                                                           or Cost             Value of
                              Portfolio                    Analysis            Purchase
                    Mail and Operational
                    Equipment                                         1               38,786
                    Facilities                                        5              611,951
                    Total                                             6             $650,737
                   Source: U.S. Postal Service Office of the Inspector General's (OIG) review of
                   Postal Service records.

The Supplying Principles and Practices (SP&P) indicates that some form of analysis is
required for every purchase.1 For four of the five facilities' purchases, contracting
officials stated that they did not conduct analyses due to the urgency of requirements.
One facility's purchase was an unauthorized contractual commitment.2 The Postal
Service field office did not coordinate with the contracting official to award the contract
before the service was rendered. For the mail and operational equipment purchase, the
contracting officer (CO) only provided a quote from the supplier as evidence of price
analysis.

Without a documented price or cost analysis, management cannot attest to achieving
best value3 for their purchases. Further, obligating the Postal Service to pay for services
without determining that prices are reasonable increases the risk that the Postal Service
will overpay for products and services.




1
  SP&P, Section 2-34, Conduct Price/Cost Analysis.
2
  An unauthorized contractual commitment occurs when a Postal Service employee who has not been delegated
contracting or local buying authority or who exceeds such authority takes action to cause another party to deliver
goods or services.
3
  Best value is defined as the outcome that provides the optimal combination of elements such as lowest total cost of
ownership, technology, innovation and efficiency, assurance of supply, and quality relative to the Postal Service’s
needs.


                                                          2
Noncompetitive Purchasing Practices                                                           SM-AR-13-004



Supporting Documentation

Seven purchases valued at $6,743,521 did not contain sufficient documentation
describing how the contracting officials’ price or cost analysis was conducted to
determine that prices were fair and reasonable (see Table 2).

                          Table 2. Analysis of Supporting Documentation

                                                  Insufficient
                                                  Supporting                 Value of
                          Portfolio              Documentation               Purchase
                    Technology
                    Infrastructure                                 4             $5,433,016
                    Mail and
                    Operational
                    Equipment                                      3              1,310,505
                    Total                                          7             $6,743,521
                   Source: OIG review of Postal Service records.

The following are some of the reasons for the lack of documentation to support price
and cost analyses:

     For technology infrastructure purchases, contracting officials stated that they
      determined that prices were fair and reasonable based on discussions with a
      research firm, but the details of those conversations were not documented in the
      contract files. Also, for one purchase the CO was unable to identify the previous
      purchases he used as the basis for his price analysis.

     For mail and operational equipment purchases, contracting officials relied on the
      program office engineers to assess the reasonableness of the supplier's proposed
      costs; however, the details of the engineers' analyses were not documented in the
      contract files. Contracting officials asked the engineers specific questions to obtain
      the details of their analyses, but the engineers responded with brief statements
      indicating that they determined reasonableness based on their expertise and
      knowledge. We asked the engineers why they did not address the contracting
      officials' questions and they stated they believed their expertise was sufficient.

The SP&P do not state what information should be in the contract file to support price
and cost analysis; however, it requires that reviewing officials ensure that the contract
file contains sufficient documentation to permit a third party not directly involved in the
transaction to review and understand the process and the business decisions that led to
the proposed action.4 Reviewing officials did not ensure that contract files contained
sufficient documentation because they relied on the summary of the price or cost
analysis for their business decisions. If contracting officials do not document their price
and cost analysis process and maintain supporting documentation in their contract files,

4
    SP&P, Section 2-41.2.4, Review and Approval Process for Noncompetitive Actions.


                                                          3
Noncompetitive Purchasing Practices                                                                     SM-AR-13-004



other COs who rely on the information to conduct historical price analysis cannot ensure
the information is accurate and Postal Service cannot attest to achieving best value.

Noncompetitive Justifications

Contracting officials did not fully complete the noncompetitive justification for awarding
10 of 56 purchases (or 18 percent of purchases) valued at $34,497,303. Specifically,
COs noncompetitively awarded three purchases valued at $18,640,536 that could have
promoted increased competition in the marketplace. Seven purchases valued at
$15,856,767 did not have an approved NPR in the contracting file.

Competing Contracts

COs noncompetitively awarded three purchases valued at $18,640,536 that could have
been competed.

   COs awarded one facility's purchase valued at $73,755 for snow removal and
    landscaping because the services were already rendered. COs stated that officials
    from local post offices who submitted NPRs were unaware of the contracting
    process and incorrectly believed they had the ability to authorize services with
    suppliers due to the urgent need to remove snow.

   The CA questioned the CO's decision not to compete two technology infrastructure
    purchases valued at $18,566,781; however, the purchases were still made
    noncompetitively.

    o For one technology infrastructure purchase valued at $4,753,000, the CA noted
      there were existing Postal Service suppliers who could have provided the service
      and may have lowered their published prices to compete. The contracting
      official acknowledged there are existing suppliers under the Enterprise
      Technology Services5 contract vehicle who could have competed for
      the purchase but stated that he did not have enough time to plan for competition.
      Further, the business office that requested the service preferred not to compete
      the contract because the current supplier is familiar with the activities needed to
      support the office’s strategic business objectives and meet its aggressive
      timelines.

    o For the second technology infrastructure purchase valued at $13,813,781, the
      requestor’s basis for the noncompetitive purchase did not include all alternatives
      to justify not competing. The justification was solely based on the cost of
      replacing the existing software and did not include the option of keeping the
      existing software and competing the purchase among suppliers capable
      of servicing the software in its current environment. According to the CA
      evaluation, a formal request for information (RFI) notifying the supplier

5
  The purpose of this contract is to consolidate, streamline, and reduce the cost of future services through reduced
rates and best-in-breed business solutions provided to information technology (IT) clients.


                                                           4
Noncompetitive Purchasing Practices                                             SM-AR-13-004



       community about the size and scale of the purchase requirements and the intent
       to continue with the current supplier unless another supplier provided a
       compelling proposal, would have helped to promote competition.

       The CO responded to the CA that there was not enough time to issue a RFI and
       that it would be considered in the future; however, it was noted the contract had
       been awarded twice noncompetitively. Further, during interviews with IT business
       office personnel and contracting officials, they stated that the Postal Service
       prefers to conduct business with the original equipment manufacturer (OEM)
       instead of third-party suppliers. Therefore, we determined in this instance that the
       Postal Service made the decision based on its preference of conducting business
       with the OEM rather than having insufficient time.

Competition helps to drive cost savings, enhance service or product quality, and
promote innovative solutions. Further, competition promotes fairness and openness that
leads to increased public trust in the Postal Service brand. If contracting officials do not
seek all opportunities to compete in the marketplace, the Postal Service might overpay
for products and services and not achieve the best value for purchases that can
negatively impact the Postal Service's brand.

On July 23, 2013, the Postal Service's chief financial officer stated in a memorandum
that one of the main reasons for not competing purchases was lack of advance
planning. As a result, the CA will collaborate with Supply Management to promote
competition by issuing a report of purchases that are due to expire within 6 months.
Advance notice should allow contracting officials sufficient time to work with managers
to identify opportunities for competition.

Noncompetitive Purchase Requests

Seven of 56 purchases (or 13 percent of purchases) valued at $15,856,767 did not have
an approved NPR to justify awarding the purchases noncompetitively. Specifically:

   For two technology infrastructure purchases valued at $4,555,844, NPRs were not
    complete. The CO for one technology purchase valued at $4,539,344 provided a
    copy of the NPR that was not signed by the requestor. He stated the original NPR
    was signed, but they could not locate the original document. The other technology
    infrastructure purchase valued at $16,500 was inadvertently left off a blanket
    purchase agreement and was not included as part of the NPR; therefore, we were
    unable to determine whether an NPR was completed.

   For five international air transportation services purchases valued at $11,300,923,
    the requestor signed and the CO evaluated the associated NPRs about 5 months
    after the award was made. COs stated these international air purchases were
    initially competed but, because they received no offers from suppliers and were
    under time constraints to move the mail, they awarded the contracts as a
    noncompetitive exception. The management instruction for noncompetitive
    purchases allows contracting officials to verbally approve noncompetitive purchases


                                             5
Noncompetitive Purchasing Practices                                                SM-AR-13-004



      in emergency situations; however, the CO must follow up to complete the NPR.6
      Although, management took corrective action during our audit to complete and
      evaluate the NPRs, the management instruction does not provide a timeframe for
      completing an NPR for an emergency purchase. Management needs to provide
      clear guidelines regarding the timeframe for completing critical contract
      documentation for emergency purchases, otherwise contracting officials will not be
      able to support contracting actions.

International Air Transportation Contract Documentation

During our audit of the five international air transportation purchases noted previously,
we identified that required documentation, such as proposals and signed contracts,
were missing from the contract files. The Transportation Portfolio began managing
international air transportation contracts in 2012, and contracting officials stated they
are not always able to obtain required documentation from suppliers because of cultural
and language barriers. An electronic system exists for international suppliers to submit
required documentation, but international suppliers do not always use the system.
Because of cultural differences, international suppliers are not willing to conform to the
laws that govern the U.S. or do not understand the need to sign a document.
Contracting officials further stated that, at times, the Postal Service goes through the
U.S. military or the U.S. Department of State (State Department) to get necessary forms
signed and delivered; however, because of time constraints and requirements to move
the mail, documents were not always received timely.

We benchmarked with three other federal agencies to determine whether they
encounter the same limitations as the Postal Service in dealing with foreign suppliers
and how they handle those limitations. During our benchmarking efforts, we learned that
U.S. Transportation Command (USTRANSCOM) has a pool of about 20 domestic
suppliers that provide international air transportation. By using a pool of domestic
suppliers, USTRANSCOM can avoid issues, such as foreign language barriers,
incomplete contract documentation, and poor solicitation response sometimes
experienced by the Postal Service. USTRANSCOM has created the Enterprise
Readiness Center that engages other federal agencies to establish partnerships
through which they can leverage USTRANSCOM's international transportation and
logistics infrastructure. Partnering with other federal agencies provides an opportunity
for the Postal Service to reduce cultural and language barriers experienced when
purchasing international air transportation services.

Recommendations

We recommend the vice president, Supply Management:

1. Direct contracting officials to include and verify that sufficient information is in the
   contract file to support price and cost analysis.


6
    Management Instruction SP S2-2011-1, Emergencies.


                                                        6
Noncompetitive Purchasing Practices                                             SM-AR-13-004



2. Reiterate policy that field personnel not approve suppliers to start work without
   authorization from the contracting officer.

3. Ensure contracting officials collaborate with the competition advocate and internal
   business partners requesting purchases to promote increased competition when
   awarding contracts.

4. Revise Management Instruction SP S2-2011-1 to include a specific timeframe for
   completing required contract documentation for emergency purchases.

5. Explore opportunities to partner with other federal agencies to leverage their
   international air transportation and logistics infrastructures to reduce cultural and
   language barriers experienced with international suppliers.

Management’s Comments

Management agreed with the findings and recommendations 1, 2, 3, and 5 but
disagreed with recommendation 4. They also disagreed with the monetary impact of six
purchases, valued at $25,114,704, associated with recommendations 3 and 4.

Regarding recommendation 1, management stated they will cascade the final report
and communicate further the documentation requirements for price and cost analysis
specified within their policies and management instruction for noncompetitive
purchases. For recommendation 2, management will issue communication reiterating
policy on contracting authority and unauthorized contractual commitments.

For recommendation 3, management will reiterate guidance to encourage further
collaboration among the CO, requesting organization, and CA. Further the CA, in
coordination with the chief financial officer, established a reporting mechanism that lists
significant competitive and noncompetitive contracts that are due to expire within 6
months. The reports will be provided to all officers within the Postal Service to promote
competition and improve requirements planning.

Management disagreed with the monetary impact of one purchase associated with
recommendation 3, valued at $13,813,781, stating that the NPR for this purchase
contained detailed information to support the basis of the request. They further stated
the extensive documentation contained a rational and well supported business case
demonstrating the price was fair and reasonable. Further, the CO followed policies and
negotiated significant discounts when compared to the supplier’s current U.S. General
Services Administration (GSA) schedule pricing. Lastly, management stated the
required management reviews and approvals were obtained and documented in the
contract file at the time of the audit.

Management’s target implementation date for recommendations 1, 2, and 3 is
December 2013.




                                             7
Noncompetitive Purchasing Practices                                              SM-AR-13-004



Management disagreed with recommendation 4 and the associated monetary impact of
five purchases, valued at $11,300,923. They stated the monetary impact associated
with these five international air contracts should be removed because these were
considered emergency contracts and the requirement to follow up with the
noncompetitive documentation was completed and in the contract file at the time of the
audit. Further, they stated that including a specific time by which the contract
documentation is to be formalized for emergency contracts places unnecessary
restrictions on the process.

Regarding recommendation 5, management stated they have collaborated with other
agencies such as the U.S. Department of Defense military and State Department during
the award of the international air transportation contracts, but these efforts did not result
in agreements that would meet their unique requirements. Management also stated that
in early September they engaged USTRANSCOM to determine whether an opportunity
exists to partner with the agency. However, based on initial discussions, management
concluded they were unable to leverage their transportation and logistics infrastructures,
and the mission and needs of the two agencies are different. Management consider
their actions complete for this recommendation. See Appendix C for management’s
comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 1, 2, 3,
and 5; and corrective actions in response to recommendation 5 have been completed.
However, we disagree with management’s response to recommendation 4. Further, we
disagree with reducing our monetary impact associated with recommendations 3 and 4.

Regarding recommendation 3 and the monetary impact amount of $13,813,781 for one
purchase, the OIG did not question the sufficiency of the documentation provided by the
CO. Rather, we questioned the basis of the decision not to compete the contract. The
requestor’s basis for the noncompetitive purchase did not include all alternatives to
justify not competing. For example, the justification was solely based on the cost of
replacing the existing software and did not include the option of keeping the
existing software and competing the purchase among suppliers capable of servicing the
software in its current environment. Additionally, the purchase was awarded without
competition to the same supplier twice in the past. A significant discount off the GSA
schedule of a single supplier, without comparing the prices from other suppliers, may
not constitute best value for the Postal Service.

Regarding recommendation 4 and the monetary impact amount of $11,300,923 for five
emergency international air contract purchases, management stated that the
documentation requirements were met and providing a timeframe for completing
required contract documentation places unnecessary restrictions on the process. We
disagree. The required documentation was not completed until after we requested it 5
months after the contract award. We believe establishing a timeframe for completing
critical contract documentation will ensure adequate support for contract actions. We



                                              8
Noncompetitive Purchasing Practices                                        SM-AR-13-004



view the disagreement on significant recommendation 4 as unresolved but do not plan
to pursue it through the formal audit resolution process.

The OIG considers recommendations 1, 2, and 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed. We are closing recommendations 4 and 5
with the issuance of this report.




                                          9
Noncompetitive Purchasing Practices                                            SM-AR-13-004



                            Appendix A: Additional Information

Background

Price and cost analyses are key elements in the contract award process that help to
ensure that the Postal Service achieves best value. Price analysis is examining and
evaluating a proposed price against reasonable benchmarks without evaluating its
separate cost elements and profit that make up the price. Techniques for conducting
price analysis for noncompetitive purchases include:

   Comparison with regulated, market, or catalog prices: allows the Postal Service to
    comply with the price as set by law or regulation and compares proposed prices with
    prices available in suppliers' catalogs, market prices, indexes, and discount or rebate
    arrangements.

   Comparison with historical prices: involves comparing previously proposed and
    contract prices with current proposed prices for the same/similar items in
    comparable quantities. The pricing analyst should ensure that historical prices are
    still reasonable in the marketplace and serve as a valid basis for comparison.

   Use of independent cost estimates (ICE): performing an ICE allows the purchase
    team to compare the supplier's proposed prices with independent Postal Service
    cost estimates to establish a reasonable price. An ICE should assess the total cost
    to be incurred by the supplier if the contract is awarded.

Cost analysis is an assessment of the direct and indirect costs leading to the final price
of the product or service. Direct costs include salary, labor, and profit. Indirect costs
include items such as legal fees, travel, and taxes. Cost analysis is appropriate when
factors affecting the purchase will not ensure a reasonable price based on price
analysis alone or the Postal Service needs an understanding of the cost build up of the
proposal to verify cost reasonableness. Contracting officials must obtain cost or pricing
data whenever price analysis is insufficient to determine reasonableness of price.

Typically, best value is achieved through competition, which brings market forces to
bear and allows the direct comparison of proposals and lifecycle costs. However,
sometimes market conditions may dictate a single or sole source strategy. When these
instances occur, a NPR must support not using the competitive process for a purchase.
The CA must independently review purchases with an estimated value of $1 million or
more. In January 2011, the vice president, Supply Management, appointed the CA. The
CA is responsible for promoting competition throughout the purchasing process,
challenging barriers to competition and assisting purchase teams in developing effective
solutions to obtain best value.




                                            10
Noncompetitive Purchasing Practices                                                        SM-AR-13-004




Objectives, Scope, and Methodology

Our objectives were to determine whether contracting officials conducted a price or cost
analysis to support the reasonableness of noncompetitive contract prices and to assess
the associated noncompetitive justifications.

To accomplish our objectives, we:

     Reviewed Postal Service criteria, guidelines, and procedures on price and cost
      analysis and justifications for noncompetitively awarded contracts.

     Interviewed contracting officials responsible for conducting price and cost analysis
      and evaluating the justifications to award contracts noncompetitively.

     Obtained a universe of 1,682 purchases valued at $1,322,494,003 identified as
      noncompetitive and awarded from October 1, 2010, to September 30, 2012. We
      reviewed a statistically selected sample of 56 contract purchases valued at
      $434,058,172.

     Reviewed the contract documentation to determine whether Postal Service
      contracting officials:

      o Conducted price and cost analyses.

      o Performed an assessment to determine whether suppliers' proposed prices were
        fair and reasonable.

      o Maintained sufficient documentation to adequately support their price or cost
        analysis and determination that a supplier's proposed prices were fair and
        reasonable.

Finally, we benchmarked with three federal agencies7 to develop best practices for the
management of international air contracts. To complete the benchmarking, we
interviewed Postal Service Global Air Transportation management, developed
a benchmarking survey, identified and sent surveys to contacts at other agencies,
notified the Postal Service of our results, and followed up with the OIG and Postal
Service legal departments.

We conducted this performance audit from October 2012 through September 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
7
    USTRANSCOM, the U.S. Agency for International Development, and the State Department.


                                                       11
Noncompetitive Purchasing Practices                                                             SM-AR-13-004



our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on August 2, 2013, and included their
comments where appropriate.

We assessed the reliability of computer-generated data for noncompetitive purchases
by comparing source documents to data in the Contracting Authoring Management
System8 to verify the total value of the purchases and the procurement types. We
determined that the data were sufficiently reliable for the purposes of this report.




8
    A contract writing tool that houses clauses and provisions relevant to various contracts.


                                                             12
     Noncompetitive Purchasing Practices                                             SM-AR-13-004



     Prior Audit Coverage



     Report Title           Report Number        Final Report Date           Monetary Impact
Trends and                   SM-MA-13-002             3/15/2013                   None
Systemic Issues in
Defense Contract
Audit Agency Audit
Work for Fiscal
Years 2009-2012
Report Results:
During FYs 2009-2012, the Defense Contract Audit Agency (DCAA) audits identified more
than $185 million in unallowable and unsupported contract costs and disclosed internal
control weaknesses related to contractors' accounting systems, financial capabilities, and
labor charges. These results assisted contracting officials in negotiating lower contract
prices and settlements. The OIG recommended that management emphasize to contracting
officials the importance of requesting DCAA audits to support decisions in awarding and
managing contracts. Management agreed with the findings of this report.

The Sufficiency of           CA-AR-11-006              8/31/2011                   None
Recent Policy
Changes Regarding
Contracting Conflicts
of Interest
Report Results:
The OIG found the new policies issued in response to our prior audit were sufficient to avert
direct or imputed conflicts of interest among contracting officials and internal business clients
and should help to promote accountability and impartial and cost-effective contracting
decisions. The actions taken to date include implementing policies similar to or more
stringent than the requirements of the Federal Acquisition Regulation. Management agreed
with the findings of this report.




                                                  13
Noncompetitive Purchasing Practices                                                                  SM-AR-13-004




                                      Appendix B: Monetary Impact


           Recommendations                     Impact Category                           Amount
              1,2,3, and 4               Unsupported Questioned Costs9                 $210,563,133

We performed a stratified variable sample that allowed us to extrapolate results from a
universe of 1,682 purchases, valued at $1,322,494,003, identified as noncompetitive
and awarded from October 1, 2010, to September 30, 2012. We found discrepancies
with 21 of 56 purchases, or $37,064,806 because contracting officials did not provide
documentation to support price or cost reasonableness and justifications to award
noncompetitive purchases (see Table 3 for further analysis of the purchase
discrepancies). At a 90-percent confidence level, we projected that at least
$210,563,133 of the $1,322,494,003 in noncompetitive purchases did not contain
documentation to support price or cost reasonableness and justifications to award
noncompetitive purchases. This amount was claimed as unsupported questioned costs
because of missing or incomplete documentation or failure to follow policy or required
procedures but does not necessarily indicate that the Postal Service incurred actual
loss.

                            Table 3. Analysis of Purchase Discrepancies

              Purchase Discrepancies                               Count                Dollar Value
     Purchases with price or cost analysis and
     supporting documentation                                             11                      $2,567,503
     Purchases with noncompetitive justification
     discrepancies                                                         8                      29,670,548
     Purchases with price or cost analysis,
     supporting documentation, and
     noncompetitive justification discrepancies                            2                      4,826,755
     Total                                                                21                    $37,064,806
    Source: OIG review of Postal Service records.




9
 A weaker claim and a subset of questioned costs. Claimed because of failure to follow policy or required procedures
but does not necessarily connote any real damage to Postal Service.


                                                        14
Noncompetitive Purchasing Practices                           SM-AR-13-004



                          Appendix C: Management’s Comments




                                         15
Noncompetitive Purchasing Practices        SM-AR-13-004




                                      16
Noncompetitive Purchasing Practices        SM-AR-13-004




                                      17
